              Treasury’s Process for Contracting
            for Professional Services under TARP




SIGTARP 11-003                                     April 14, 2011
                 Office of the special inspector general
                     For the Troubled Asset Relief Program
                                1801 L Street, NW, 4th floor
                                  Washington, D.C. 20220




                                      April 14, 2011


MEMORANDUM FOR:             Mr. Timothy Massad – Acting Assistant Secretary for
                            Financial Stability, Department of the Treasury

FROM:                       Ms. Christy L. Romero – Acting Special Inspector General
                            for the Troubled Asset Relief Program

SUBJECT:                    Treasury’s Process for Contracting for Professional
                            Services under the Troubled Asset Relief Program
                            (SIGTARP-11-003)


We are providing this audit report for your information and use. It discusses the
Department of the Treasury’s (“Treasury”) process for contracting for professional
services under the Troubled Asset Relief Program (“TARP”). The Office of the Special
Inspector General for the Troubled Asset Relief Program (“SIGTARP”) is conducting
this audit under the authority of Public Law 110-343, as amended, which also
incorporates the duties and responsibilities of inspectors general under the Inspector
General Act of 1978, as amended.

Treasury provided written comments to a draft of this report on April 7, 2011. The
comments are addressed in the report, where applicable, and a copy of Treasury’s
response to this report is included in Appendix G – Management Comments. Names of
individuals and proprietary contractor pricing information have been redacted in this final
report.

We appreciate the courtesies extended to the staff. For additional information on this
report, please contact Mr. Kurt Hyde, Deputy Special Inspector General for Audit and
Evaluation (kurt.hyde@treasury.gov / 202-622-4633), or Mr. Clayton Boyce, Acting
Assistant Deputy Special Inspector General for Audit (clayton.boyce@treasury.gov /
202-622-9257).




SIGTARP 11-003                                                                April 14, 2011
Treasury’s Process for Contracting for Professional
Services under the Troubled Asset Relief Program

Table of Contents
Introduction .................................................................................................................................... 1

The OFS Contract and Task Orders with Venable Did Not Include Sufficiently Detailed
Billing Requirements or Instructions .............................................................................................. 3

OFS Did Not Have Sufficiently Detailed Procedures for Reviewing Legal Fee Bills .................. 6

OFS Should Adopt Best Practices Used by Other Federal Entities to Review Legal Fee Bills .... 9

SIGTARP Found Block Billing, Vague and Inadequate Descriptions of Work, and
Administrative Charges – All of Which Should Have Been Questioned Before Payment ......... 11

Conclusions and Recommendations ............................................................................................ 18

Management Comments and SIGTARP’s Response ................................................................... 20

Appendices

       Appendix A – Scope and Methodology ............................................................................... 21

       Appendix B – Venable Contract, Task Orders, and Modifications ...................................... 23

       Appendix C – Local Rules for the United States
                    Bankruptcy Court, District of Delaware ....................................................... 24

       Appendix D – Potential Billing Issues ................................................................................. 25

       Appendix E – Acronyms and Abbreviations ........................................................................ 26

       Appendix F – Audit Team Members .................................................................................... 27

       Appendix G – Management Comments ............................................................................... 28

       Appendix H – New OFS Guidance to Its Outside Counsel
                    on Legal Fee Bill Submission and Format ................................................... 31


This report has cleared SIGTARP’s Office of General Counsel disclosure review process and information
determined to be restricted from public release has been redacted from this report.

Redaction Legend: (b)(4) – 5 U.S.C.§ 552(b)(4), Trade Secrets, Commercial or Financial Information
                  (b)(6) – 5 U.S.C.§ 552(b)(6), Personal Information Affecting an Individual’s Privacy




SIGTARP 11-003                                                                                                                 April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                         1




Introduction
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) began an audit of the Department of the Treasury’s (“Treasury”) process for
contracting for professional services under the Troubled Asset Relief Program (“TARP”) in
May 2010, as part of SIGTARP’s continuing oversight of TARP and in response to a request
from Senator Tom Coburn, M.D. (SIGTARP Engagement Code 021.) SIGTARP interviewed
Treasury officials in the Office of Financial Stability (“OFS”) and Treasury’s Procurement
Services Division, reviewed relevant Treasury policies and procedures governing contracts,
analyzed Treasury’s contracts with five law firms, and reviewed a sample of invoices for legal
services (“fee bills”) from each of the firms. The five law firms are: (1) Cadwalader
Wickersham & Taft LLP, (2) Locke Lord Bissell & Liddell LLP, (3) McKee Nelson LLP (which
merged with, and is now, Bingham McCutchen LLP), (4) Simpson Thacher & Bartlett LLP, and
(5) Venable LLP (“Venable”). As of December 31, 2010, OFS paid these five law firms more
than $27 million in legal fees.

This report discusses the results of SIGTARP’s audit of OFS’ contracting processes related to
Venable and SIGTARP’s audit of fee bills submitted by Venable and paid by OFS. In addition,
SIGTARP’s initial review of other law firms’ contracts and fee bills suggests that they too raise
issues similar to those discussed in this report. SIGTARP is issuing this report so that OFS will
have the opportunity to quickly strengthen its policies, controls, and contracts. SIGTARP
conducted the audit between May 2010 and March 2011, and in accordance with generally
accepted government auditing standards prescribed by the Comptroller General of the United
States. For a discussion of the audit’s scope and methodology, see Appendix A.

Specifically, SIGTARP found weaknesses in the OFS contract for legal services with Venable,
as well as the OFS policies for review of Venable’s fee bills. The OFS contract for legal services
did not contain sufficiently detailed requirements or instructions on how Venable should prepare
fee bills or how it should describe discrete tasks within each fee bill. Moreover, once OFS
received the fee bills, the OFS Contracting Officer’s Technical Representatives (“COTRs”) were
given no specific standards or instructions on how to review the fee bills for accuracy and
reasonableness. Venable submitted, and OFS paid without questioning, fee bills that contained
block billing, vague and inadequate descriptions of work, and administrative charges not allowed
under the contract. As a result, in many instances OFS could not have adequately assessed the
reasonableness of the fees.

SIGTARP likewise was unable to assess the reasonableness of Venable’s fees because of the
billing methods allowed and the lack of adequate detail in many of the fee bills. As a result,
SIGTARP questioned $676,840 in fee billings (approximately two-thirds of the total value of the
fee bills SIGTARP reviewed). That SIGTARP questioned these fee billings does not mean that
the fees themselves were unreasonable, only that the information provided by Venable in the
bills was insufficient to allow SIGTARP, or OFS, to fairly assess their reasonableness.

OFS’ current contracts and fee bill review practices create an unacceptable risk that Treasury,
and therefore the American taxpayer, is overpaying for legal services. To improve controls over
the review and payment of legal fee bills, SIGTARP recommends that OFS adopt the standards


SIGTARP 11-003                                                                April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                         2




used by the Federal Deposit Insurance Corporation (“FDIC”) or establish similarly detailed
requirements regarding how law firms should prepare legal fee bills and then use a law firm’s
compliance with these requirements as a basis for its review of those bills. SIGTARP also
recommends that OFS establish policies that prescribe specific invoice review procedures for
COTRs to follow in their review of legal fee bills. Lastly, SIGTARP recommends that OFS
review previously paid legal fee bills to identify unreasonable or unallowable charges and seek
reimbursement as appropriate. SIGTARP’s specific recommendations are discussed later in this
report.

Following meetings to discuss SIGTARP’s preliminary findings and recommendations, OFS
officials took actions to implement SIGTARP’s recommendations. SIGTARP acknowledges
that the plans and actions OFS has taken to date are good first steps toward implementing
SIGTARP’s recommendations. Specifically, OFS told SIGTARP that it implemented
SIGTARP’s recommendations by sending to active legal services contractors instructions on
submitting invoices, meeting with its COTRs to provide instructions on reviewing invoices,
meeting with officials at FDIC to discuss adopting the best practices they use for reviewing legal
fee bills, and reaching out to Venable to schedule a discussion of the findings in this report.
These actions, along with others that OFS will need to take to fully implement SIGTARP’s
recommendations, are positive changes for improving OFS’ review of legal fee bills and
protecting taxpayer dollars. SIGTARP will continue to monitor OFS’ progress in implementing
these recommendations.




SIGTARP 11-003                                                                April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                            3




The OFS Contract and Task Orders with Venable
Did Not Include Sufficiently Detailed Billing
Requirements or Instructions
In response to an OFS solicitation issued February 17, 2009, Venable submitted a proposal dated
February 20, 2009, detailing the firm’s qualifications. That same day, OFS issued a contract to
Venable for the law firm to provide expertise and guidance related to the Capital Purchase
Program (“CPP”),1 Capital Assistance Program (“CAP”),2 and other legal tasks. Venable
contracted primarily to prepare legal documentation for CPP and CAP and negotiate and close
investment transactions related to those programs. The contract had a $50,000 minimum value
and a $5 million maximum value, based on work that Venable would perform under individual
task orders issued by OFS. Between February 20, 2009, and June 26, 2009, five task orders were
issued under the Venable contract for work to be performed through February 2010. In total,
Venable submitted 21 fee bills and was paid $1,394,723 for its services. Appendix B lists
Venable’s task orders and modifications and shows the purpose, award date, and period of
performance for each.

SIGTARP reviewed OFS solicitation TOFS-09-S-0001, issued February 17, 2009, and the
contract awarded under the solicitation to Venable – contract TOFS-09-D-0002, dated
February 20, 2009 – looking for detailed billing requirements or instructions regarding allowable
costs and services and any guidance for Venable on how fee bills should be structured or how
Venable attorneys and paralegals (collectively “timekeepers”) should document their time. The
Venable contract contained hourly rates for various labor categories for attorneys and paralegals,
but SIGTARP did not find sufficiently detailed billing requirements or instructions regarding the
fee bill structure or specific guidance on allowable costs and services. Instead, the contract
incorporated only general payment information by reference to two Federal Acquisition
Regulation (“FAR”) clauses, discussed below.

The FAR is the primary regulation for use by all Federal executive agencies in their acquisition
of supplies and services with appropriated funds. The FAR precludes agency acquisition
regulations that unnecessarily repeat, paraphrase, or otherwise restate the FAR, limits agency
acquisition regulations to those necessary to implement FAR policies and procedures within an
agency, and provides for coordination, simplicity, and uniformity in the Federal acquisition
process. The Emergency Economic Stabilization Act of 2008 (“EESA”) – the statute that created
TARP – allowed the Secretary of the Treasury to waive any provision of the FAR if the
Secretary determined that “urgent and compelling circumstances make compliance with such
provisions contrary to the public interest.” Treasury has not, however, made use of this waiver

1
  Capital Purchase Program (“CPP”). Under CPP, Treasury directly purchased preferred stock or subordinated
  debentures in qualifying financial institutions. CPP was intended to provide funds to “stabilize and strengthen the
  U.S. financial system by increasing the capital base of an array of healthy, viable institutions, enabling them [to]
  lend to consumers and business[es].” Treasury invested $204.9 billion in 707 institutions through CPP.
2
  Capital Assistance Program (“CAP”). Treasury announced that it would provide capital under CAP to bank
  holding companies that needed to raise additional capital based on the results of Federal Reserve stress tests. On
  November 9, 2009, Treasury announced that CAP, originally intended to complement CPP, was closed without any
  investments being made under the program.


SIGTARP 11-003                                                                               April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                           4




authority in its contracting for legal services, and the FAR therefore governs OFS’ contracting
procedures with respect to the Venable contract.

The FAR was referenced in the Venable contract, which states: “This contract incorporates one
or more [FAR] clauses by reference, with the same force and effect as if they were given in full
text.” The following two FAR clauses dealing with payments to contractors were incorporated
by reference into the Venable contract:

      FAR 52.232-1, Payments, which states in part:
           The Government shall pay the Contractor, upon the submission of proper invoices or vouchers, the
           prices stipulated in this contract for supplies delivered and accepted or services rendered and accepted,
           less any deductions provided in this contract. Unless otherwise specified in this contract, payment shall
           be made on partial deliveries accepted by the Government if—
                (a) The amount due on the deliveries warrants it; or
                (b) The Contractor requests it and the amount due on the deliveries is at least $1,000 or 50 percent
                    of the total contract price.

      FAR 52.232-7, Payments under Time-and-Materials and Labor-Hour Contracts,
       provides general instructions on payment of invoices. The clause states in part:
           The Government will pay the Contractor as follows upon the submission of vouchers approved by the
           Contracting Officer or the authorized representative:

               (a) Hourly rate. (1) Hourly rate means the rate(s) prescribed in the contract for payment for labor
                   that meets the labor category qualifications of a labor category specified in the contract that
                   are—
                         (i) Performed by the Contractor;
                         (ii) Performed by the subcontractors; or
                         (iii) Transferred between divisions, subsidiaries, or affiliates of the Contractor under a
                         common control.

               (2) The amounts shall be computed by multiplying the appropriate hourly rates prescribed in the
                   Schedule by the number of direct labor hours performed.

               (3) The hourly rates shall be paid for all labor performed on the contract that meets the labor
                   qualifications specified in the contract. Labor hours incurred to perform tasks for which labor
                   qualifications were specified in the contract will not be paid to the extent the work is
                   performed by employees that do not meet the qualifications specified in the contract, unless
                   specifically authorized by the Contracting Officer.

               (4) The hourly rates shall include wages, indirect costs, general and administrative expenses, and
                   profit. Fractional parts of an hour shall be payable on a prorated basis.

               (5) Vouchers may be submitted once each month (or at more frequent intervals, if approved by the
                   Contracting Officer), to the Contracting Officer or authorized representative. The Contractor
                   shall substantiate vouchers (including any subcontractor hours reimbursed at the hourly rate in
                   the schedule) by evidence of actual payment and by—
                         (i) Individual daily job timekeeping records;
                         (ii) Records that verify the employees meet the qualifications for the labor categories
                         specified in the contract; or
                         (iii) Other substantiation approved by the Contracting Officer.




SIGTARP 11-003                                                                             April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                                 5




SIGTARP also examined the five OFS task orders3 issued under the Venable contract, but none
included any additional invoice or billing requirements. The task orders did include instructions
on how to email fee bills to Treasury’s vendor pay system for payment, but did not provide
instructions on how the fee bills should be structured or how attorneys and paralegals should
document and report their time for each activity.




3
    Although five task orders were issued under the Venable contract, no work was performed under Task Order 4;
    thus, no fees were billed or paid under Task Order 4. In addition, Task Order 3 was a fixed-price task order that
    did not require specific instructions regarding allowable costs and services beyond the closing of the subject
    transaction.


SIGTARP 11-003                                                                                  April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                                6




OFS Did Not Have Sufficiently Detailed
Procedures for Reviewing Legal Fee Bills
Under FAR 1.602, only contracting officers are granted authority to enter into, administer, and
terminate contracts on behalf of the Government. Contracting officers are also responsible for
ensuring performance of all necessary actions for effective contracting, ensuring compliance
with the terms of the contract, and safeguarding the interests of the United States in its
contractual relationships. The Department of the Treasury Acquisition Regulation, which
supplements the FAR, allows the contracting officer to delegate certain responsibilities to a
COTR.4

Because OFS does not have procurement authority, a contracting officer in Treasury’s
Procurement Services Division solicits, negotiates, and awards contracts on behalf of OFS. For
each contract, the contracting officer also appoints a COTR through a letter of designation, after
the COTR is nominated by the program office, in this case OFS.5 The letter of designation
describes the authority as well as specific responsibilities of the COTR. Each contract identifies
the responsible COTR. In all, one contracting officer and three OFS COTRs worked on the
Venable contract.

Until September 2009 – after the award of both the Venable contract and the task orders – OFS
used procedures issued by Treasury’s Procurement Services Division (“Treasury’s procedures”).
Treasury’s procedures state that the COTR is responsible for, among other items, “Reviewing
contractor invoices and supporting documentation for certification,” but include no specific
instructions beyond that requirement.6 Moreover, while Treasury’s procedures address a broad
4
  The Department of the Treasury Acquisition Regulation states: “Requisitioning offices must nominate to the
  contracting officer an individual to act as the contracting officer’s technical representative in the administration and
  monitoring of a contract. Selection is to be based on the technical expertise and experience of the individual…”
  The COTRs’ authorities and responsibilities are communicated to them in their COTR Designation Memorandum,
  which is prepared for each contract.
5
  As noted in the preceding footnote, the Department of the Treasury Acquisition Regulation requires Treasury
  program offices receiving support services through contracts to nominate a COTR.
6
  Treasury’s standard operating procedure for invoice control, dated February 28, 1994, describes COTR
  responsibilities as follows:
    The COTR is designated … to furnish technical clarification, monitor contract performance and maintain an
    arm’s length relationship with the contractor throughout the term of his appointment. The COTR’s technical
    knowledge in the areas of performance covered by the contract allows him to function as the Government
    representative most capable of providing technical direction to the contractor. Generally, a COTR’s
    responsibilities include:
     a. Controlling all Government technical interface with contractor personnel;
     b. Assuring that appropriate action is taken on technical correspondence pertaining to contract/delivery orders
        and ensuring that adequate files are maintained;
     c. Furnishing documentation on any request for change, deviation, or waiver to the contracting officer for
        action;
     d. Reviewing contractor invoices and supporting documentation for certification;
     e. Notifying the contracting officer of performance problems and recommending corrective action;
     f. Reviewing contract deliverables and accepting/rejecting them;
     g. Evaluating contractor proposals and developing Government estimates;
     h. Preparing contractor performance evaluations; and
     i. Accounting [for] and monitoring any Government furnished property (GFP).


SIGTARP 11-003                                                                                  April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                                7




array of procurement functions, such as tracking invoices and vouchers, they do not address
precise activities required of COTRs in conducting reviews of legal fee bills or similar bills.

After September 2009, OFS established its own procedures. SIGTARP reviewed OFS
“Contracting Officer Technical Representative (COTR) Nomination and File Organization
Procedures” (“COTR procedures”) and OFS “Administration Procedures” to determine whether
these procedures are sufficient to ensure that payments are made only for invoices submitted by
contractors that adequately and accurately reflect the work performed and that only include
allowable costs. The COTR procedures state, in Section 4.3.1.2, Contract Performance
Management, that COTR duties may include, “Reviewing contractor invoices to ensure costs are
allocable to the contract, allowable pursuant to financial regulations, and reasonable.” However,
the procedures do not provide specifics on allowable and unallowable costs, services, and
charges; nor are COTRs separately provided this information as a guide to perform reviews of
the fee bills. The OFS procedures are similar to Treasury’s procedures discussed earlier in that
they do not provide specific instructions or guidelines that would serve as a basis for COTRs to
review and question invoices.

Although the OFS COTR procedures make no reference to the FAR regarding what is allowable,
the FAR governs the OFS contract with Venable. Under FAR 31.201-2, a cost is allowable only
when it complies with all of the following five requirements. The cost must: (1) be reasonable
(not exceed that which would be incurred by a prudent person in the conduct of a competitive
business), (2) be allocable (incurred specifically for the contract), (3) meet standards
promulgated by the Cost Accounting Standards Board or generally accepted accounting
principles, (4) be within the terms of the contract, and (5) be within any limitations set forth by
FAR Subpart 31.2, which prescribes the determination and proper treatment of costs in
Government contracts with commercial organizations.

Three of the five task orders awarded to Venable were labor-hour7 task orders. This type of
contract provides for acquiring supplies or services on the basis of direct labor hours at specified,
fixed hourly rates that include wages, overhead, general and administrative expenses, and profit.
However, according to FAR 16.601(c)(1), “A time-and-materials contract provides no positive
profit incentive to the contractor for cost control or labor efficiency. Therefore, appropriate
Government surveillance of contractor performance is required to give reasonable assurance that
efficient methods and effective cost controls are being used.” FAR 16.301-3(a) further
prescribes that this type of cost-reimbursement contract “may be used only when – (1) The
contractor’s accounting system is adequate for determining costs applicable to the contract; and
(2) Appropriate Government surveillance during performance will provide reasonable assurance
that efficient methods and effective cost controls are used.”

All three OFS COTRs interviewed by SIGTARP confirmed that there were no written standards
for the invoice review process. The OFS COTRs told SIGTARP that they employ informal
processes that begin when the contractor submits an invoice and status report that includes hours
and dollars spent. The COTRs stated that they review all documentation for accuracy and

7
    As defined in FAR 16.602, a labor-hour contract is a variation of the time-and-materials contract, differing only in
    that materials are not supplied by the contractor.


SIGTARP 11-003                                                                                  April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                           8




reasonableness and typically communicate with the various OFS business teams and others
receiving a contractor’s work to determine whether the time and information reported are
accurate. They also review invoices submitted by other vendors for similar tasks and compare
them to the invoice they are examining. The COTRs informed SIGTARP that when conducting
their reviews of legal contracts in particular, they look for issues such as unauthorized attorneys
working on the contract, double billing, or “other direct costs”8 not covered by the contract such
as automated legal research, long-distance telephone calls, and commercial messenger and
delivery services. According to the COTRs, unless the contract states that other direct costs are
reimbursable, they are not paid. The COTRs told SIGTARP they employed all of these informal
processes when reviewing the Venable fee bills.




8
    “Other direct costs” are contract-related expenses for anything other than direct labor charges.


SIGTARP 11-003                                                                                   April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                           9




OFS Should Adopt Best Practices Used by Other
Federal Entities to Review Legal Fee Bills
The OFS contract with Venable did not have sufficiently detailed billing requirements or
instructions regarding allowable costs and services, and OFS policies do not prescribe specific
invoice review procedures for COTRs. In conducting this audit of Venable’s invoices,
SIGTARP looked to:
       FAR clauses expressly incorporated in the OFS contract with Venable;
       general provisions in the FAR governing labor-hour contracts; and
       practices and standards – which SIGTARP considers best practices – used by other
        Federal entities, particularly the Federal Deposit Insurance Corporation’s (“FDIC”)
        Outside Counsel Deskbook, as well as the Department of Justice’s United States Trustee
        Guidelines,9 and local rules of court established by the Delaware Bankruptcy Court.10

FDIC appears to be particularly analogous. It has a long history of contracting with law firms to
provide legal representation and advice to the agency to assist it in the management and
liquidation of assets and liabilities from closed, insured banks. Outside counsel under contract to
FDIC provide a broad range of services, including liquidation of failed insured depository
institutions; bankruptcy and creditors’ rights; collections; foreclosures; real estate and financial
transactions including debt restructuring; general business and corporate law advice;
professional, director, and officer liability issues; and other litigation. As of July 31, 2010,
FDIC’s website (www.FDIC.gov) listed more than 900 law firms on its “List of Counsel
Available.”

FDIC’s Outside Counsel Deskbook directs, among other things, the billing practices of law firms
working with FDIC. It includes:
       requirements for outside counsel to prepare a budget at the commencement of a matter
        and submit detailed fee bills on a regular basis in accordance with the budget;
       submission instructions, including requirements for monthly billing and for billing within
        30 days of the last day of the contractor’s billing cycle;
       descriptions and lists of billable and non-billable fees and expenses, including
        documented approval and receipts for non-overhead expenses; and




9
   The Bankruptcy Reform Act of 1994 amended the responsibilities of the United States Trustees under 28 U.S.C.
   586(a)(3)(A) to provide that, whenever they deem appropriate, United States Trustees will review applications for
   compensation and reimbursement of expenses under section 330 of the Bankruptcy Code, 11 U.S.C. 101, et seq.,
   in accordance with procedural guidelines adopted by the Executive Office for United States Trustees. The
   guidelines are available at http://www.justice.gov/ust/eo/rules_regulations/guidelines/docs/feeguide.htm.
10
   Although SIGTARP assessed Rule 2016-2 (d) from the Local Rules for the United States Bankruptcy Court,
   District of Delaware, which became effective February 1, 2009, all bankruptcy courts have similar standards for
   fees, whether contained in local rules or not. The Delaware Bankruptcy Court is considered a leading bankruptcy
   court for standards because of the number of corporations registered in the state. The rule is available at
   http://www.deb.uscourts.gov/LocalRules/LOCAL%20RULES%202009.pdf.


SIGTARP 11-003                                                                              April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                        10




          invoice format, including requirements and examples for:
           o detail and description of services or activities (time billed for each activity should be
              identified separately; “block billing” – the combination of different types of activities
              in one entry on the invoice – is prohibited, even if the same individual performed the
              activities, unless the total time charged is no more than 30 minutes);
           o time increments (billing in increments of greater than 0.1 hour – 6 minutes – is
              unacceptable);
           o itemization of expenses; and
           o travel reimbursements, similar to requirements in Government travel regulations.

SIGTARP’s review of practices used by the United States Trustees and the Delaware Bankruptcy
Court disclosed that they involve similar requirements for legal fee bills.11 FDIC’s Outside
Counsel Deskbook, however, contains more detailed instructions, examples, and explanations.
SIGTARP used FDIC’s Outside Counsel Deskbook in its review of Venable’s fee bills, in
addition to the FAR clauses included in the OFS contract with Venable and other FAR
provisions governing labor-hour contracts.

Using FDIC’s Outside Counsel Deskbook, SIGTARP prepared a list of potential billing issues
and then evaluated a sample of Venable’s legal fee bills paid by OFS by comparing each
individual hourly labor charge in the fee bills to the list of potential billing issues. SIGTARP’s
results, as discussed below, show how Treasury’s contract language and review procedures cause
it to fall short in comparison to the best practices identified by SIGTARP. All potential billing
issues SIGTARP assessed are listed in Appendix D.




11
     The Delaware Bankruptcy Court rule on compensation and expense reimbursement, which is particularly succinct,
     is included in Appendix C.


SIGTARP 11-003                                                                             April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                              11




SIGTARP Found Block Billing, Vague and Inadequate
Descriptions of Work, and Administrative Charges – All of
Which Should Have Been Questioned Before Payment
The OFS contract with Venable ultimately governs allowable services and costs. Recouping
expenditures SIGTARP considers questionable or potentially inappropriate may be difficult, in
part because the contract provides little or no guidance on such issues. If OFS had included
specific, detailed provisions regarding billing methods and allowable services and costs in its
contract with Venable, or had more effective internal procedures for reviewing legal fee bills, the
billing methods SIGTARP observed should not have been allowed. But that is not to suggest
that Venable violated the terms of its contract with OFS. Although many invoices were
submitted with insufficient detail to assess their reasonableness, they were submitted in a manner
permitted by OFS both because sufficiently detailed billing requirements or instructions were not
included in the Venable contract and because the OFS COTRs did not question them during the
review process. The following discussion and examples demonstrate differences between OFS’
legal fee bill review processes and what SIGTARP considers best practices.

Based on the dollar values of individual Venable fee bills, SIGTARP judgmentally selected and
analyzed 6 of the 21 fee bills submitted by Venable and paid by OFS. The 6 sampled fee bills
represented about $1 million of the total $1.3 million billed by Venable (or 74% of total billings).

In an effort to assess the reasonableness of Venable’s legal fees, SIGTARP compared
descriptions of work performed in each individual time charge on the sampled fee bills to a list
of potential billing issues. This list is in Appendix D.

SIGTARP questioned any item that:
           was not a professional service and was not directly attributable to achieving the contract
            or task order statement of work, such as preparing an invoice or researching case law for
            matters outside the scope of work;
           did not have sufficiently detailed descriptions of the task performed; or
           had descriptions of more than one task in the time entry, which is typically called lump
            billing or block billing.

After reviewing each charge, SIGTARP classified it as:
           “allowable,” when no exception to the FAR or SIGTARP’s list of potential billing issues
            was noted;
           “unallowable,” when the cost was not allowed as prescribed by FAR 31.201-212 or fit the
            description of a charge included in SIGTARP’s list of potential billing issues; or
12
     As stated previously, a cost is “allowable” only when it complies with all of the following five requirements. The
     cost must: (1) be reasonable (not exceed that which would be incurred by a prudent person in the conduct of a
     competitive business), (2) be allocable (incurred specifically for the contract), (3) meet standards promulgated by
     the Cost Accounting Standards Board or generally accepted accounting principles, (4) be within the terms of the
     contract, and (5) be within any limitations set forth in FAR Subpart 31.2, which prescribes the determination and
     proper treatment of costs in Government contracts with commercial organizations.


SIGTARP 11-003                                                                                  April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                                                       12




               “unsupported,” when the description of work did not contain enough information for
                SIGTARP to determine whether the task met the five FAR requirements to be
                “allowable” or whether it fit the description of a charge included in SIGTARP’s list of
                potential billing issues.

SIGTARP’s audit of OFS’ review of Venable fee bills determined that the COTRs did not
question any fees for labor on the sampled invoices or request any labor fee write-downs on
these or any of the other Venable fee bills submitted. According to one of the three COTRs on
the Venable contract, the COTRs would disapprove a charge as improper, for example, if it was
performed outside the contract’s scope of work, such as work on a separate program, or was
prohibited in the contract, or if it exceeded the overall funding ceiling for the contract. OFS told
SIGTARP that the project attorney would typically review the fee bill hours for reasonableness,
after which the COTR would approve the fee bill for payment. In some instances, Venable
voluntarily reduced its fees before submitting the fee bill to OFS. On one fee bill, Venable noted
that the invoice reflected Venable’s write-down of about $14,000, based on adjustments to the
amount of partner and associate hours, but the reason for the write-down was not explained
further. SIGTARP noted that direct costs other than fees for labor (such as automated legal
research, long-distance telephone calls, and commercial messenger and delivery services) were
appropriately questioned by the COTRs and not paid. According to the COTRs, those costs were
not included in the contract and therefore not allowed.

SIGTARP assessed the description of work performed in each of the 890 individual time charges
in the 6 sampled Venable fee bills. The 890 charges comprised a total of [redacted–(b)(4)]
timekeeper hours totaling $1,027,049 in fees, of which SIGTARP questioned [redacted–(b)(4)]
hours (64%) totaling $676,840 (66%). Table 1 identifies the costs SIGTARP questioned for each
sampled task order. Had OFS requested and received additional information from Venable,
SIGTARP might well have categorized many of these questioned costs as allowable.
SIGTARP’s rationale for questioning the charges is explained below.


TABLE 1

QUESTIONED LEGAL FEES
                                                                          Invoice           Questioned                  Percentage of
Task Order and Invoice Number                                               Total                 Fees                 Costs Questioned
Task Order 1: Invoice 04132009                                          $411,190                $190,679                       46%
                                    a
Task Order 1: Invoice 06202009                                            146,236                 89,270                       61%
Task Order 2: Invoice 04172009                                            316,739                298,597                       94%
Task Order 2: Invoice 06192009                                             25,851                 20,108                       78%
Task Order 5: Invoice 12302009                                             74,491                 46,956                       63%
Task Order 5: Invoice 12332009                                             52,541                 31,229                       59%
Total                                                                 $1,027,049                $676,840                       66%
            a
Note:    This June 2009 invoice also included details of all time charges billed in May 2009, invoice 05182009. Therefore, SIGTARP reviewed
         $86,514 in the June 2009 fee bill and $59,722 in the May 2009 fee bill.
Source: SIGTARP analysis of data provided by Venable.




SIGTARP 11-003                                                                                                     April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                          13




SIGTARP questioned most of the Venable charges reviewed because they were block billed,
meaning that a single charge included descriptions of several different tasks without specifying
the time required to complete each task, and together the tasks totaled more than 30 minutes.13
While Treasury’s contract with Venable did not specifically prohibit block billing, SIGTARP
believes that the COTRs had the authority to reject invoices containing such billing based on
FAR standards. Reasonableness of individual tasks, and, therefore, allowability under the FAR
guidelines, cannot be determined when charges are block billed. That the COTRs did not use
this authority under the FAR guidelines may have been a product of the lack of sufficiently
detailed OFS procedures on reviewing fee bills. Because multiple tasks were included in block
billed charges without actual completion times, SIGTARP was not able to determine which
portions of these charges are appropriate and so questioned the entire amount. Venable would
need to provide additional information for OFS and SIGTARP to determine whether these
charges were reasonable and therefore allowable.

Examples of block billed charges SIGTARP found when auditing Venable’s fee bills include:
          In two time entries, a Venable timekeeper billed a total of more than 20 hours, charging
           more than $[amount redacted–(b)(4)], describing multiple tasks in each entry. The
           invoice stated:
               03/23/09    PARTICIPATE IN CALL WITH ALL PARTICIPANTS TO REVIEW CITI PROGRAM
                           STRUCTURE AND RELATED ISSUES; PARTICIPATE IN CALLS WITH GM AND CHRYSLER
                           COUNSEL TO REVIEW SPECIFIC COMMENTS TO LOAN DOCUMENTS; WORK RE
                           ANALYSIS AND REVIEW OF REQUESTED CHANGES; RELATED TELEPHONE
                           CONFERENCES AND E-MAILS. (10.8 HOURS)
               03/25/09    REVIEW AND REVISE SERVICING AGREEMENT, SUPPLIER PURCHASE AGREEMENT AND
                           OEM PAYING SERVICES AGREEMENT; REVIEW OEM AND CITI COUNSEL COMMENTS
                           ON DOCUMENTS; RELATED TELEPHONE CONFERENCES AND E-MAILS. (10.9 HOURS)


SIGTARP questioned these charges because it could not determine the reasonableness of the
charges without separate timekeeping entries for each task. When asked, one COTR explained
that he approved charges based on consultations with the OFS attorneys closest to the Venable
attorneys performing the work. In response to a preliminary draft of this report, OFS told
SIGTARP, “We disagree with your statement that the work done by the lawyers working on time
sensitive and highly labor intensive task orders was not allocable to the contract. The law firm as
well as the OFS project attorney review invoices to ensure the work is in scope and allocable
under the FAR.” This response only addresses whether the work falls within the scope of the
task order, not the reasonableness of the time charged. Neither the COTR nor OFS attorneys
could reasonably determine whether the time charged for each activity is reasonable because the
activities are grouped together in one time entry.
          Another Venable timekeeper billed 13.7 hours in a single time entry for multiple tasks
           and charged more than $[amount redacted–(b)(4)]. This same timekeeper used the exact
           same description on multiple days with similar amounts charged, for a total of nearly
           $[amount redacted–(b)(4)]. The invoice stated:


13
     Consistent with the FDIC Outside Counsel Deskbook, SIGTARP did not question block billed charges totaling
     30 minutes or less.


SIGTARP 11-003                                                                            April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                          14




           03/22/09    REVIEW AND REVISE TRANSACTION DOCUMENTS; CONFERENCE CALLS; INTERNAL
                       CONFERENCES. (6.2 hours)
           03/23/09    REVIEW AND REVISE TRANSACTION DOCUMENTS; CONFERENCE CALLS; INTERNAL
                       CONFERENCES. (12.8 HOURS)
           03/24/09    REVIEW AND REVISE TRANSACTION DOCUMENTS; CONFERENCE CALLS; INTERNAL
                       CONFERENCES. (9.8 HOURS)
           03/25/09    REVIEW AND REVISE TRANSACTION DOCUMENTS; CONFERENCE CALLS; INTERNAL
                       CONFERENCES. (11.4 HOURS)
           03/26/09    REVIEW AND REVISE TRANSACTION DOCUMENTS; CONFERENCE CALLS; INTERNAL
                       CONFERENCES. (13.7 HOURS)
           03/27/09    REVIEW AND REVISE TRANSACTION DOCUMENTS; CONFERENCE CALLS; INTERNAL
                       CONFERENCES. (11.2 HOURS)
           03/29/09    REVIEW AND REVISE TRANSACTION DOCUMENTS; CONFERENCE CALLS; INTERNAL
                       CONFERENCES. (6.2 HOURS)
           03/30/09    REVIEW AND REVISE TRANSACTION DOCUMENTS; CONFERENCE CALLS; INTERNAL
                       CONFERENCES. (10.8 HOURS)
           03/31/09    REVIEW AND REVISE TRANSACTION DOCUMENTS; CONFERENCE CALLS; INTERNAL
                       CONFERENCES. (10.2 HOURS)


Further, in reviewing the descriptions above, the COTR could not have reasonably determined
with whom the conference calls and internal conferences were held and for what purpose, and
whether the internal conferences were necessary for the level of persons involved, and not longer
than necessary. That the descriptions were exactly the same for nine nearly consecutive days
should have been a red flag to the reviewing official, who should have questioned the charges
and obtained greater specificity. In addition, SIGTARP found instances where internal
conferences were charged and the time charges among the attorneys involved for these same
conferences varied – the COTR should have questioned these charges on their face, but would
have had greater success in challenging them if the charges were not block billed.

The COTR who reviewed these charges stated that he did not have firsthand knowledge of the
work performed and that he relied on the OFS attorneys who were working closely with
Venable. In its response to a preliminary draft of this report, OFS stated that “the OFS attorney
working with Venable had such firsthand knowledge [of this timekeeper’s work] and
confirm[ed] that given the amount of drafting being done as well as negotiations, emails, and
calls that the type of billing did not cause her any concerns.” Based on the way the time charges
in question were block billed, neither the OFS attorneys nor the COTR could reasonably
determine that the time spent on each activity was appropriate or reasonable, particularly since
the bills were submitted weeks after the OFS attorney interaction occurred. Furthermore, it
would be extremely difficult – if it is possible at all – for an OFS attorney working on multiple
projects with multiple attorneys to determine weeks later with any specificity that the work
performed in these vague, identical block billings was reasonable. After discussions with
SIGTARP on a draft of this report and its recommendations, OFS has begun to implement
SIGTARP’s recommendations to change its practices to conform to those best practices
employed by FDIC and the bankruptcy courts.

SIGTARP also questioned administrative charges, such as preparing fee bills, reviewing the OFS
contract and task orders, and addressing conflict of interest issues, primarily because it could not


SIGTARP 11-003                                                                 April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                               15




determine the reasonableness of these charges. In addition, preparing fee bills is not a
professional service and not directly attributable to achieving the contract or task order statement
of work. As specified in the FAR, under labor-hour contracts, hourly rates already include
wages, indirect costs, and general and administrative expenses. Regarding administrative
charges, in its Outside Counsel Deskbook, FDIC requires that its contractors include in their
hourly rates all costs of doing business including overhead, general and administrative costs,
fringe benefits, and profit. The Outside Counsel Deskbook expressly prohibits fees for
“[i]nvoice preparation, review, or for corrections to the invoice required by the FDIC oversight
attorney or legal information technician.” It further states that FDIC will only pay reasonable
costs for services rendered or supplies provided in the course of representation. OFS when
reviewing Venable’s fee bills should have denied or limited these types of administrative
charges. SIGTARP found and questioned many administrative charges, including:
      Venable timekeepers billed more than 17 hours to review the OFS contract, task order,
       and conflict of interest issues, as well as for tasks labeled “file organization” and
       “organizational work,” in the first five days of the contract. These charges totaled more
       than $[amount redacted–(b)(4)]:
            02/20/09   REVIEW OF CONTRACT AWARDED BY TREASURY; ANALYSIS OF INITIAL TASKS.
                       (2.2 HOURS)
            02/22/09   REVIEW OF TERMS OF OFS TREASURY/VENABLE AWARD/CONTRACT. (0.8 HOURS)
            02/23/09   PHONE CONVS. WITH [name redacted–(b)(6)] AND OTHERS CONCERNING REQUIREMENTS
                       UNDER TARP CONTRACT WITH DEPT. OF TREASURY; INITIAL REVIEW OF SOLICITATION,
                       CONTRACT AND PROPOSAL TO IDENTIFY POTENTIAL AREAS OF CONCERN. (0.9 HOURS)
            02/23/09   REVIEW TREASURY E-MAILS RE COMPLIANCE ISSUES; ASSEMBLE PRELIMINARY TEAM FOR
                       PROJECTS. (1.0 HOURS)
            02/23/09   ORGANIZATIONAL WORK RELATED TO TREASURY PROJECT; CALL FROM TREASURY RE
                       CONFLICTS ISSUES AND MITIGATION PLAN; INTERNAL MEETINGS AND CONFERENCE CALL
                       WITH [name redacted–(b)(6)] REGARDING ORGANIZATION OF THE PROJECT; REVIEW OF
                       RELATED DOCUMENTS; ASSIGNMENT OF RESEARCH TASKS. (6.6 HOURS)
            02/24/09   REVIEW TREASURY PROPOSAL; CONFERENCE CALL WITH [names redacted–(b)(6)].
                       (1.2 HOURS)
            02/24/09   MEETING WITH VENABLE ATTORNEYS AND CONFERENCE CALL WITH [name redacted–
                       (b)(6)] RE REVIEW OF TREASURY CONTRACT; COMPLIANCE ISSUES; REVIEW OF ISSUES;
                       ASSIGNMENTS. (0.6 HOURS)
            02/24/09   CALL FROM US TREASURY RE NEEDED REVISIONS TO CONTRACT; INTERNAL CALLS TO
                       [name redacted–(b)(6)] AND OTHERS RE CONTRACTING REQUIREMENTS; FILE
                       ORGANIZATION; CONFERENCE CALL WITH [name redacted–(b)(6)] AND VENABLE
                       ATTORNEYS; IDENTIFICATION OF AND ASSIGNMENT OF INITIAL RESEARCH ASSIGNMENTS.
                       (4.4 HOURS)

      Some Venable timekeepers charged for preparing fee bills, as well as for performing
       other administrative duties. On one invoice, these charges totaled more than $[amount
       redacted–(b)(4)]:
            04/07/09   ATTENTION TO WEEKLY REPORTING AND BILLING ISSUES. (1.7 HOURS)
            04/13/09   REVIEW BILLING STATEMENT AND WEEKLY REPORT. (0.6 HOURS)
            04/14/09   ATTENTION TO CONFLICTS ISSUES; WEEKLY REPORT PREPARATION. (1.2 HOURS)
            04/21/09   ATTENTION TO WEEKLY REPORT AND ADMINISTRATIVE MATTERS.    (2.0 HOURS)



SIGTARP 11-003                                                                   April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                               16




            04/23/09   TELEPHONE CONFERENCE WITH [name redacted–(b)(6)] RE TREASURY BILLING,
                       CONFLICTS ISSUES; TELEPHONE CALL TO [name redacted–(b)(6)] RE ESTIMATE OF
                       REMAINING WORK; DRAFT E-MAIL TO [name redacted–(b)(6)] RE ESTIMATE OF FUTURE
                       COSTS TO COMPLETE PROJECT. (0.9 HOURS)


Regarding time billed to review one Venable contract, the OFS COTR commented that he did
not know of anything prohibiting billing for that task. When asked about the charges related to
invoice preparation, the COTR commented that, based on his understanding from Treasury’s
procurement staff, an invoice is considered a contract deliverable and there is no prohibition on
billing for that type of activity. However, SIGTARP’s review of the OFS contract and task
orders disclosed that the invoice was not a deliverable. The only deliverable under each task
order was the status report. Accordingly, under the existing OFS contract and task orders,
charges for invoice preparation should not have been paid. Had OFS followed best practices as
outlined in the FDIC Outside Counsel Deskbook, such charges would have been expressly
prohibited.

Other OFS-approved charges had vague descriptions, were inconsistently billed, or included
multiple tasks billed together so that a reviewer could not determine the amount of time spent on
each task – and therefore whether the time spent was reasonable. These charges should have
been challenged by OFS under FAR requirements. The FDIC Outside Counsel Deskbook notes
that descriptions of tasks should be “brief and informative” and contrasts between a description
of a time charge for “research,” which lacks detail, and one for “legal research on statute of
limitations issues,” which provides more detail. Further, inadequate descriptions make it
difficult for OFS to determine whether the charge is allowable pursuant to the FAR. The
following example illustrates the need for adequate descriptions of all charges:
      One Venable timekeeper billed 8.5 hours, resulting in a charge of more than $[amount
       redacted–(b)(4)], for an internal conference with other Venable employees, without
       further explanation or identification of a specific subject. The invoice stated:
            03/14/09   CONFERENCE WITH [name redacted–(b)(6)] AND [name redacted–(b)(6)].
                       (8.5 HOURS)

      The other Venable timekeepers referenced above recorded the time as follows:
            03/14/09   CONFERENCES WITH [name redacted–(b)(6)], [name redacted–(b)(6)], [name
                       redacted–(b)(6)], [name redacted–(b)(6)]; PREPARE TERM SHEETS. (7.7 HOURS)
            03/14/09   REVIEW MODEL TRANSACTION DOCUMENTS; INTERNAL CONFERENCES; DRAFT TERM
                       SHEET. (9.2 HOURS)


SIGTARP questioned the entire amount of each of these entries because the timekeepers did not
provide enough detail for SIGTARP to determine whether the charges were reasonable. Based
on these timekeepers’ methods, it would be extremely difficult for a COTR reviewing an invoice
to determine whether these charges were allowable or unallowable. One other issue is evident in
this string of billings – the first timekeeper charged 8.5 hours for the conference; however, the
second timekeeper charged less time, and possibly significantly less time, but SIGTARP could
not determine how much because of the block billing. The third timekeeper may have charged
less time as well, but because of the block billing, SIGTARP was unable to determine how much
time the attorney allocated to each activity.


SIGTARP 11-003                                                                      April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                                                          17




When asked about the 8.5 hour internal conference, the OFS COTR who approved that fee bill
reiterated that he relied on the input of the OFS attorneys working most closely with the Venable
team. He also commented that he reviewed the status reports to determine the volume of effort.
However, another OFS COTR reviewed this charge during a meeting with SIGTARP and
commented that she would have preferred to have seen more detail contained in the charge,
although none of the OFS COTRs questioned any fees for labor on the sampled invoices.
Further, OFS informed SIGTARP that OFS has no procedures concerning OFS attorneys
reviewing fee bills, and OFS provided no documentation of any such review of legal fee bills.
Furthermore, because the conferences were internal, no meaningful review or firsthand
knowledge by OFS project attorneys of the relevance of this 8.5 hour conference is possible.
Likewise, the volume of effort shown in the status report would have no bearing on or detailed
information regarding internal conferences.

Table 2 presents the questionable and unsupported legal fees that SIGTARP identified and
categorized by type of billing issue. In many instances, SIGTARP questioned charges for more
than one reason, as noted in the table where columns have more than one description. SIGTARP
used combined categories to eliminate double counting the value of questioned charges.

TABLE 2

QUESTIONED LEGAL FEES BY CATEGORY
                                                                                                                                   Block Billed,
                                                                                          Block Billed         Block Billed       Administrative
                                                                                                  and                  and           Tasks, and
Task Order and              Block Billed       Administrative         Inadequate        Administrative          Inadequate          Inadequate
Invoice Number                     Only          Tasks Only           Detail Only               Tasks                Detail               Detail
Task Order 1:
Invoice 04132009                $139,025                 $9,853            $3,835                $25,336             $12,630                      $0
Task Order 1:
Invoice 06202009                  37,695                  9,735              1,316                  3,658             35,449                    1,416
Task Order 2:
Invoice 04172009                 150,685                     270             6,633                    648            140,360                          0
Task Order 2:
Invoice 06192009                  16,436                     378                  0                 3,294                   0                         0
Task Order 5:
Invoice 12302009                  44,506                     172                  0                     0              2,278                          0
Task Order 5:
Invoice 12332009                  28,448                     230               481                  1,150                 920                      0
Subtotal                        $416,796                $20,638           $12,265                $34,086           $191,637                $1,416
Total                                                                                                                                    $676,840
Notes: Numbers affected by rounding. The first three columns of questioned legal fees refer to fees SIGTARP questioned for the single reason
        listed. The last three columns refer to fees SIGTARP questioned for multiple reasons. Categories are combined to avoid duplication of
        questioned costs. Categories are explained in more detail in Appendix D.
Source: SIGTARP analysis of data provided by OFS




While Table 2 shows all billing issues SIGTARP identified in the sampled invoices, SIGTARP
was not able to quantify an amount that it believes OFS improperly paid to Venable because of
the lack of detail in the descriptions of work.


SIGTARP 11-003                                                                                                      April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                           18




Conclusions and Recommendations
SIGTARP’s analysis of OFS’ contracting process and fee bill review related to Venable as well
as SIGTARP’s initial analysis of fee bills and contracts of other law firms have disclosed areas
where OFS can immediately improve its contracting policies and its controls over payment of
outside legal fees. The need for improvement is particularly acute given that most of the OFS
legal service contracts and task orders SIGTARP reviewed were labor-hour contracts, which, as
the FAR explains, require “appropriate Government surveillance of contractor performance ... to
give reasonable assurance that efficient methods and effective cost controls are being used.”

First, OFS contracts for legal services do not adequately describe how to prepare fee bills or
provide adequate information on what costs, services, or charges are allowable or unallowable.
Although OFS legal services contracts incorporate several FAR clauses regarding general
payment and allowable cost information, the mere reference to these clauses does not appear to
have given sufficient guidance either to outside counsel preparing fee bills or OFS COTRs
reviewing those bills to ensure that tax dollars are wisely and appropriately spent.

Second, OFS’ procedures for reviewing fee bills offer insufficient guidance to OFS COTRs,
resulting in inadequate and inconsistent review of legal fee bills. Those procedures regarding
invoice review simply state that COTR duties may include “Reviewing contractor invoices to
ensure costs are allocable to the contract, allowable pursuant to financial regulations, and
reasonable.” They do not provide specifics on allowable and unallowable costs, services, and
charges; nor are OFS COTRs separately provided this information as a guide to perform reviews
of the fee bills.

As a result, OFS COTRs did not question any hourly labor charges, including those with vague
and inadequate descriptions of work and those that were block billed, even though those
practices made assessing the reasonableness of the bills exceedingly difficult, if it was possible at
all. In addition, the lack of detailed language in the OFS contract with Venable resulted in OFS
COTRs routinely approving charges for tasks that could be considered administrative, and thus
not reimbursable under a labor-hours contract. As specified in the FAR, under labor-hour
contracts, hourly rates should already include wages, indirect costs, and general and
administrative expenses. Nonetheless, SIGTARP noted numerous instances of charges for
administrative tasks, such as Venable attorneys preparing and reviewing invoices, reviewing the
contract, and reviewing task orders. At a minimum, these charges should have been challenged
by the OFS COTRs, but SIGTARP saw no documented evidence to indicate that OFS questioned
or rejected these administrative charges.

OFS’ current practices create an unacceptable risk that Treasury, and therefore the American
taxpayer, is overpaying for legal services. OFS should immediately provide its outside attorneys
specific directions on how to prepare fee bills and how to describe discrete tasks within each fee
bill. Further, OFS should provide its COTRs specific instructions and guidance on how to
review legal fee bills for accuracy and reasonableness and incorporate those instructions into
written policies. To that end, SIGTARP met with OFS to discuss a draft of this report and its
recommendations, and OFS has already begun to take steps to improve its controls by adopting
SIGTARP’s recommendations. Although SIGTARP will need to assess OFS’ corrective actions,


SIGTARP 11-003                                                                 April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                         19




to date OFS has provided its outside counsel instructions on submitting invoices, met with and
provided training to its COTRs to provide instructions on reviewing invoices, met with FDIC
officials to discuss FDIC’s practices for reviewing fee bills, and planned further follow-up
actions with Venable regarding SIGTARP’s findings. These actions, along with others that OFS
will need to take to fully implement SIGTARP’s recommendations, are positive changes for
improving OFS’ review of legal fee bills.

To improve controls over the review and payment of legal fees and related costs, SIGTARP
makes the following recommendations. OFS should:

   1. Adopt the legal fee bill submission standards contained in the Federal Deposit Insurance
      Corporation’s Outside Counsel Deskbook, or establish similarly detailed requirements for
      how law firms should prepare legal fee bills and describe specific work performed in the
      bills, and which costs and fees are allowable and unallowable.

   2. Include in OFS open legal service contracts detailed requirements for law firms on the
      preparation and submission of legal fee bills, or separately provide the instructions to law
      firms and modify OFS open contracts, making application of the instructions mandatory.

   3. Adopt the legal fee bill review standards and procedures contained in the Federal Deposit
      Insurance Corporation’s Outside Counsel Deskbook, or establish similarly specific
      instructions and guidance for OFS COTRs to use when reviewing legal fee bills, and
      incorporate those instructions and guidance into OFS written policies.

   4. Review previously paid legal fee bills to identify unreasonable or unallowable charges,
      and seek reimbursement for those charges, as appropriate.

SIGTARP will continue to monitor OFS’ progress in implementing these recommendations.




SIGTARP 11-003                                                               April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                           20




Management Comments and SIGTARP’s Response
 
Treasury provided comments on a draft of this report on March 30, 2011, and a written response
to the draft report in a memorandum dated April 7, 2011. Treasury’s memorandum is
reproduced in full in Appendix G.

In its response, Treasury stated that based on numerous internal controls it has implemented,
Treasury believes “…that OFS has implemented strong and effective processes in regard to all of
its contracts, including those for legal services. We believe that our practices fully satisfy the
requirements of the FAR, and we disagree with the…Report’s suggestion that our practices have
created an ‘unacceptable risk’ that Treasury is overpaying for legal services. Nonetheless, we
also recognize that every internal process can be improved, and we are committed to developing
the best possible internal controls to protect taxpayer resources.”

SIGTARP continues to believe that OFS’ legal fee bill review practices create an unacceptable
risk that Treasury may be overpaying for legal services. Because OFS did not question legal fee
bills that contained block billed charges, vague and inadequate descriptions of work performed,
and charges for administrative functions not allowed under the contract, it could not have
conclusively determined that amounts billed and paid were reasonable.

In response to recommendations 1 and 2, OFS stated that its staff reviewed FDIC’s Outside
Counsel Deskbook, met with members of the FDIC legal team who developed and implemented
the deskbook, and reviewed local rules from the Delaware Bankruptcy Court. After its review,
OFS adopted portions of each document for use as new submission and review standards, and
distributed this new guidance to all law firms currently under contract to OFS. The new, more
specific OFS guidance prescribing how legal fee bills should be prepared is included in this
report as Appendix H. OFS stated that it will work with Treasury’s Procurement Services
Division to begin modifying base contracts for OFS legal services to include those standards as
well.

For recommendation 3, OFS stated that it held training on its newly adopted guidance
prescribing how legal fee bills should be prepared with COTRs and other staff involved in the
review of legal fee bills, and that the COTRs will begin reviewing invoices in accordance with
its new standards for periods starting with March 2011. OFS also stated that it will work to
incorporate relevant portions of its training on the new legal fee bill review standards into written
procedures.

Regarding recommendation 4, OFS stated that it is following up with Venable on SIGTARP’s
findings and, in accordance with applicable contract closeout procedures, each contract will be
subject to further review by OFS. According to OFS, in the event questionable invoice amounts
are identified during such closeouts, OFS intends to seek additional support or remittance, as
appropriate.




SIGTARP 11-003                                                                 April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                            21




Appendix A ─ Scope and Methodology
SIGTARP performed this audit under authority of Public Law 110-343, as amended, which also
incorporates the duties and responsibilities of inspectors general under the Inspector General Act
of 1978, as amended. SIGTARP initiated this audit at the request of Senator Tom Coburn, M.D.
The objective is to examine the processes used to ensure that invoices submitted by the
contractors accurately reflect the work performed. This report presents the results of
SIGTARP’s audit of OFS’ processes relating to Venable LLP and SIGTARP’s audit of fee bills
submitted by Venable and paid by OFS.

To determine how OFS established and implemented contracting procedures, SIGTARP
interviewed procurement officials in OFS and Treasury’s Procurement Services Division.
SIGTARP reviewed relevant Treasury policies and procedures issued before OFS was created
that were used by OFS until it issued its own policies. SIGTARP also reviewed the OFS contract
with Venable to understand the services to be provided and any billing requirements.

To determine whether Treasury’s policies and procedures were effective, SIGTARP reviewed a
sample of invoices for legal services (“fee bills”) submitted by Venable and paid by OFS. Audit
fieldwork included interviews and tests of transactions in the offices of Venable LLP, including a
walk-through of its billing practices and procedures and review of its timekeeping and billing
policies. The scope of the audit covered all payments to Venable under its February 20, 2009,
contract with OFS, which included 21 fee bills totaling $1,394,723.50. SIGTARP judgmentally
selected for audit 6 of the 21 fee bills. Selections were primarily based on large-dollar fee bills
to increase audit coverage of contract expenditures.

SIGTARP conducted this performance audit in accordance with generally accepted government
auditing standards prescribed by the Comptroller General of the United States. Those standards
require that SIGTARP plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for findings and conclusions based on the audit objective. SIGTARP
conducted this audit from May 2010 through March 2011. SIGTARP believes that the evidence
obtained provides a reasonable basis for the findings and conclusions based on the audit
objective.

Limitations on Data
SIGTARP was unable to collect complete timekeeping information for the Venable attorneys
providing legal services to OFS. The law firm asserted that disclosing descriptions of tasks
performed for the firm’s other clients would violate those clients’ attorney-client privileges.
Without this information, SIGTARP was not able to determine whether OFS was paying for
duplicated or recycled attorney work products. In addition, entities performing work under
contract to Treasury in support of TARP are required to disclose organizational conflicts of
interest. Certifications regarding conflicts of interest are required from contractors (“self-
certifications”), and OFS has indicated that it has no process for independently verifying self-
certifications. Because contractors self-identify conflicts of interest, instances of non-
compliance could have been omitted.




SIGTARP 11-003                                                                 April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                        22




Use of Computer-Processed Data
SIGTARP did not use OFS computer-processed data during this audit. Legal fee bills were not
submitted electronically by law firms or processed electronically by OFS.

Internal Controls
As part of this audit, SIGTARP reviewed Venable’s internal control framework for collecting
and reporting time charges. SIGTARP also examined OFS’ controls for contract issuance and
administration.

Prior Coverage
There have been no audits performed assessing Treasury’s process for contracting for
professional services under the Troubled Asset Relief Program with the same or similar audit
objective.




SIGTARP 11-003                                                              April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                                                             23




Appendix B – Venable Contract, Task Orders,
             and Modifications
On February 20, 2009, OFS entered into a contract with Venable for the law firm to provide
expertise and guidance in the development of equity and debt investment and co-investment
programs, including the Capital Assistance Program (“CAP”) and the Capital Purchase Program
(“CPP”), and other legal tasks. The contract had a $5 million maximum value, and the scope of
work included preparing legal documentation for the CAP and CPP programs, and negotiating
and closing investment transactions related to those programs. Five task orders were issued
under the Venable contract. The following table identifies Venable task orders and
modifications, periods of performance, and the purpose of each task order and modification:


VENABLE CONTRACT, TASK ORDERS, AND MODIFICATIONS
                         Award              Period of
Number                    Date             Performance            Purpose
                                                                  Provide legal services for: (1) CAP documentation, (2) CPP mutual
Contract TOFS-
                        02/20/09        02/20/09 – 08/19/09       holding company documentation, (3) transactional work, and (4) other
09-D-0002
                                                                  legal tasks.

Task Order 1            02/26/09        02/20/09 – 08/19/09       Develop CPP mutual holding company documentation.

Modification 1                                                    Add funding to complete work under Task Order 1. The value
                        05/29/09        02/20/09 – 08/19/09
to Task Order 1                                                   increased by $110,000, from $500,000 to $610,000.
                                                                  Provide expertise in structuring investments and transactions related
Task Order 2            03/12/09        03/12/09 – 08/19/09
                                                                  to the Auto Industry Receivables Standby Purchase Program.
Modification 1                                                    Extend period of performance of Task Order 2 by 4 months to
                        08/14/09        03/12/09 – 12/31/09
to Task Order 2                                                   December 31, 2009.
                                                                                                                   1
Task Order 3            06/03/09        06/03/09 – 08/19/09       Redemptions and repurchases under CPP.

Modification 1                                                    Extend period of performance of Task Order 3 by 4 months to
                        08/14/09        06/03/09 – 12/31/09
to Task Order 3                                                   December 31, 2009.
                                                                                                2
Task Order 4            06/22/09        02/20/09 – 08/19/09       CPP transaction closings.

Modification 1                                                    Extend period of performance of Task Order 4 by 4½ months to
                        08/14/09        02/20/09 – 12/31/09
to Task Order 4                                                   December 31, 2009.

Task Order 5            06/26/09        06/26/09 – 12/25/09       CPP documentation; legal advice and document review.

Modification 1                                                    Extend period of performance by 2 months to February 19, 2010, and
                        12/16/09        06/26/09 – 02/19/10
to Task Order 5                                                   change COTR.
         1
Notes:   Task Orders 3 and 4 were fixed-price task orders, while all other task orders under this contract were paid based on the number of labor
         hours expended.
         2
         No work was performed under Task Order 4. The task order was issued for use in the event of a conflict of interest of other firms
         performing CPP transaction closings.
Source: SIGTARP analysis of the contracting officer’s files provided by OFS.




SIGTARP 11-003                                                                                                         April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                                         24




Appendix C – Local Rules for the United States
             Bankruptcy Court, District of Delaware
Local Rules for the United States Bankruptcy Court, District of Delaware, include a Motion for
Compensation and Reimbursement of Expenses, Rule 2016-2, for professionals requesting
approval for compensation and reimbursement of expenses in bankruptcy proceedings. The rule
includes the following requirements:

      (d) Information Requirements Relating to Compensation Requests. Such motion shall include
          activity descriptions which shall be sufficiently detailed to allow the Court to determine
          whether all the time, or any portion thereof, is actual, reasonable and necessary and shall
          include the following:
                (i)     All activity descriptions shall be divided into general project categories of time;
                (ii)    All motions shall include complete and detailed activity descriptions;
                (iii) Each activity description shall include a time allotment;
                (iv)    Activities shall be billed in tenths of an hour (six (6) minutes);
                (v)     Each activity description shall include the type of activity (e.g., phone call, research);
                (vi)    Each activity description shall include the subject matter (e.g., exclusivity motion,
                        section 341 meeting);
                (vii) Activity descriptions shall not be lumped – each activity shall have a separate
                      description and a time allotment;
                (viii) Travel time during which no work is performed shall be separately described and may
                       be billed at no more than 50% of regular hourly rates;
                (ix)    The activity descriptions shall individually identify all meetings and hearings, each
                        participant, the subject(s) of the meeting or hearing and the participant’s role; and
                (x)     Activity descriptions shall be presented chronologically or chronologically within each
                        project category.

         (e) Information Requirements Relating to Expense Reimbursement Requests.
                (i)     The motion shall contain an expense summary by category for the entire period of the
                        request. Examples of such categories are computer-assisted legal research,
                        photocopying, outgoing facsimile transmissions, airfare, meals and lodging.
                (ii)    Following the summary, the motion shall itemize each expense within each category,
                        including the date the expense was incurred, the charge and the individual incurring the
                        expense, if available.
                (iii) The motion shall state the requested rate for copying charges (which shall not exceed
                      $.10 per page), computer-assisted legal research charges (which shall not be more than
                      the actual cost) and outgoing facsimile transmission charges (which shall not exceed
                      $1.00 per page, with no charge for incoming facsimiles).
                (iv)    Receipts or other support for each disbursement or expense item for which
                        reimbursement is sought must be retained and be available on request.

Source: Local Rules for the United States Bankruptcy Court, District of Delaware, Rule 2016-2, obtained from
        http://www.deb.uscourts.gov/LocalRules/LOCAL%20RULES%202009.pdf, pages 27 and 28.




SIGTARP 11-003                                                                                                 April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                                                                        25




Appendix D – Potential Billing Issues
POTENTIAL BILLING ISSUES3
                                                                                                                                                   SIGTARP
                                                                                                                                                               1
Fees for Labor              Description                                                                                                          Classification
                            Invoice preparation, review, or corrections to an invoice required by the OFS contracting
Administrative Tasks                                                                                                                              Unallowable
                            officer’s technical representative or Treasury’s contracting officer.
                            Aggregating or lumping together multiple tasks in the same time charge, collectively totaling                                           2
Block Billing                                                                                                                                     Unsupported
                            more than 0.5 hours.
Clerical Fees               Hourly fees for time spent photocopying, sending facsimiles, etc.                                                     Unallowable
Clerical Overtime           Secretarial or clerical overtime that has not been approved by the COTR.                                              Unallowable
Contract Review             Proposal/Task Order/Contract Review. (Administrative items added by SIGTARP.)                                         Unallowable
Excessive                   Excessive intra-office conferences between attorneys or paralegals for the purpose of
                                                                                                                                                  Unsupported
Conferences                 providing instruction or status.
Excessive Review            Excessive time spent in “file review.”                                                                                Unsupported
Excessive Revision          Excessive time spent in “review and revision” of documents.                                                           Unsupported
Excessive Staff             Excessive number of attorneys performing services on a matter.                                                        Unsupported
Inadequate
                            Insufficient or incomplete description of tasks (for example: “research”).                                            Unsupported
Description
                            Charging attorney time for tasks that should be performed efficiently and effectively at less
Labor Category              expense by a paralegal or secretary, or charging paralegal time for tasks that should be                              Unsupported
                            performed by clerical workers.
                            Hours charged at a more senior attorney rate when a matter should be handled by a less
Labor Rate                                                                                                                                        Unsupported
                            senior attorney.
                            Educational or development costs to become generally familiar with statutory and case law
Training Time                                                                                                                                     Unallowable
                            affecting Treasury.
Unapproved Staff            Services of billable individuals who have not been included on the approved rate schedule.                            Unsupported
Unapproved Task             Legal work on matters as approved (work should be tied to Statement of Work).                                         Allowable
                            Value billing (billing based on the value of the information or service provided rather than
Value Billing                                                                                                                                     Unallowable
                            billing based on time spent).
                                                                                                                                                    SIGTARP
Other Direct Costs          Description                                                                                                           Classification
Commuting                   Daily commuting expenses.                                                                                             Unallowable
Copies                      In-house photocopying charges at more than $0.08 per copy.                                                            Unallowable
Copying                     Clerical time for photocopying, sending facsimiles, filing, etc.                                                      Unallowable
                            Any costs relating to filing fees in U.S. District Courts or Courts of Appeal, which OFS is not
Filing
                            required to pay (pursuant to 12 U.S.C. 1819(b)(4)).                                                                   Unallowable
Postage                     Ordinary postage (other than express, messenger, etc.).                                                               Unallowable
Research                    Charges other than “actual time” charges for electronic research (Westlaw, Lexis, etc.).                              Unallowable
Tax                         Sales tax (except for lodging) or surcharges imposed by utilities or telephone services.                              Unallowable
Training                    Charging attorney time for preparing and presenting training to OFS.                                                  Unallowable
Travel                      Approved travel time at 50% of approved timekeeper rate.                                                              Allowable
           1
Notes:    Under FAR 31.201-2, a cost is “allowable” only when it complies with all of the following five requirements. The cost must: (1) be reasonable (not exceed
          that which would be incurred by a prudent person in the conduct of a competitive business), (2) be allocable (incurred specifically for the contract),
          (3) meet standards promulgated by the Cost Accounting Standards Board or generally accepted accounting principles, (4) be within the terms of the
          contract, and (5) be within any limitations set forth in FAR Subpart 31.2, which prescribes the determination and proper treatment of costs in Government
          contracts with commercial organizations.
        2
          A cost is “unsupported” if, at the time of the audit, the cost is not supported by adequate documentation; for example, if the description of the associated
          task does not contain enough information to determine whether the task meets the five requirements to be “allowable,” as shown in Note 1.
        3
          Not all potential billing issues were identified during SIGTARP’s review of Venable’s fee bills.
Source: FDIC Outside Counsel Deskbook, with administrative tasks related to contract and task order review, and value billing, added by SIGTARP.




SIGTARP 11-003                                                                                                                   April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                          26




Appendix E – Acronyms and Abbreviations
Acronym        Definition

CAP            Capital Assistance Program
CO             Contracting Officer
COTR           Contracting Officer’s Technical Representative
CPP            Capital Purchase Program
EESA           Emergency Economic Stabilization Act of 2008
FAR            Federal Acquisition Regulation
FDIC           Federal Deposit Insurance Corporation
OFS            Office of Financial Stability
SIGTARP        Office of the Special Inspector General for the Troubled Asset Relief Program
TARP           Troubled Asset Relief Program




SIGTARP 11-003                                                                  April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                    27




Appendix F – Audit Team Members
This audit was conducted and the report was prepared under the direction of Kurt Hyde, Deputy
Special Inspector General for Audit and Evaluation, and Clayton Boyce, Acting Assistant
Deputy Special Inspector General for Audit, in the Office of the Special Inspector General for
the Troubled Asset Relief Program. The staff members who conducted the audit and contributed
to the report include Brenda James, Danial Olberding, Sarah Reed, Trevor Rudolph, and Leah
DeWolf.




SIGTARP 11-003                                                            April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                    28




Appendix G – Management Comments




SIGTARP 11-003                                                            April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                    29




SIGTARP 11-003                                                            April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                    30




SIGTARP 11-003                                                            April 14, 2011
TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                            31




Appendix H – New OFS Guidance to Its Outside Counsel
             on Legal Fee Bill Submission and Format
From:                    [name redacted–(b)(6)]
Sent:                    Thursday, March 03, 2011 11:26 AM 
Subject:                 Additional Guidance re Invoice Submission and Formatting Instructions 

Dear OFS Contractor:    
     
In an effort to standardize the procedures for all contractors in the submission of proper legal 
services invoices, listed below is guidance regarding invoice submission, invoice format and other 
direct costs.  This guidance should be considered as supplementary only to your base contract and 
individual task orders, which shall supersede anything contained herein to the contrary.  Please 
ensure that your March 2011 billing and all billing going forward conforms to the following 
standards: 
 
    A. Invoice Submission Instructions 
 
Please refer to your base contract regarding invoicing and payment instructions. In addition, 
please use the following guidance in the preparation and submission of monthly invoices: 
 
    1. Invoices should include your firm name, your DUNS number and the date. 
    2. Invoices should be issued separately for each task order under your base contract.  Please 
        indicate the contract and task order number as well as the invoice number on the cover page 
        of each invoice.  Any Purchase Requisition number assigned to the task order by Treasury 
        should also be listed. [COTRs to supply PR numbers to contractors as needed). 
    3. Invoices should be submitted for each calendar month. 
    4. Review bill prior to submission to ensure that it is within the labor hour categories and 
        hourly rate maximums required by the task order and that only allowable expenses are 
        charged as described in the task order and the other direct cost section of the base 
        contract if such costs have been awarded in the task order. 
    5. Do not bill for a service or cost that is customarily included in the normal overhead or 
        administrative expense of running a law firm (monthly bill preparation often falls in this 
        category). 
 
    B. Invoice Formatting and Instructions 
 
In general, each entry shall include activity descriptions that are sufficiently detailed to allow 
the COTR to determine whether all the time, or any portion thereof, is actual, reasonable, and 
necessary and shall include the following:  
 
    1. All activity descriptions shall be divided into general project categories of time. 
    2. All entries shall include complete and detailed activity descriptions without the use of 
        acronyms. 
    3. Each activity description shall include a time allotment.  
    4. Activities shall be billed in increments of one‐tenth of an hour (six minutes). 
    5. Each activity description shall include the type of activity (e.g., phone call, research).  
    6. Each activity description shall include the subject matter where task orders have multiple 
        subjects.  
    7. Activity descriptions shall not be lumped or block‐billed, i.e., each activity shall have a 
        separate description and a time allotment.  
    8. The activity descriptions shall individually identify all meetings and hearings, other key 
        attendees in the firm or at Treasury, the subject(s) of the meeting or hearing, and the 
        participant's role. 
    9. Activity descriptions shall be presented chronologically, or chronologically within each 
        project category. 
    10. All travel shall be approved in writing by the Contracting Officer or Contracting Officer 
        Technical Representative prior to the occurrence of the travel. 
     
    C. Other Direct Costs: 
 
For task orders that provide for other direct costs, please refer to your base contract regarding 
allowable and non‐allowable costs and travel reimbursement procedures. 


SIGTARP 11-003                                                                                    April 14, 2011
SIGTARP Hotline
If you are aware of fraud, waste, abuse, mismanagement or misrepresentations affiliated with the
Troubled Asset Relief Program, please contact the SIGTARP Hotline.

By Online Form: www.SIGTARP.gov                By Phone: Call toll free: (877) SIG-2009

By Fax: (202) 622-4559

By Mail:                 Hotline: Office of the Special Inspector General
                         for the Troubled Asset Relief Program
                         1801 L Street, NW, 4th Floor
                         Washington, D.C. 20220


Press Inquiries
If you have any inquiries, please contact our Press Office:
                                                               Kristine Belisle
                                                               Director of Communications
                                                               Kris.Belisle@treasury.gov
                                                               202-927-8940

Legislative Affairs
For Congressional inquiries, please contact our Legislative Affairs Office:
                                                               Lori Hayman
                                                               Director of Legislative Affairs
                                                               Lori.Hayman@treasury.gov
                                                               202-927-8941

Obtaining Copies of Testimony and Reports
To obtain copies of testimony and reports please log on to our website at www.sigtarp.gov
